                                                               UNCLASSIFIED


OFFICE OF INSPECTOR GENERAL
                                                      United States Department of State
                                                      and the Broadcasting Board of Governors
                                                      Office of Inspector General




                              MIDDLE EAST REGIONAL OFFICE

                              Performance Evaluation of Palestinian
                              Authority Security Forces Infrastructure
                              Construction Projects in the West Bank




                              Report Number MERO-I-11-03, March 2011
Inspector
General
Office of




                                                                     IMPORTANT NOTICE
                              This report is intended solely for the official use of the Department of State or the Broadcasting Board
                              of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                              General. No secondary distribution may be made, in whole or in part, outside the Department of State
                              or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                              authorization by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                              criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED
                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                                                  UNCLASSIFIED



                                       TABLE OF CONTENTS

KEY FINDINGS�������������������������������������������������������������������������������������������������������������������� 1
INTRODUCTION���������������������������������������������������������������������������������������������������������������� 3
EXECUTIVE SUMMARY���������������������������������������������������������������������������������������������������� 5
  Results ������������������������������������������������������������������������������������������������������������������������������ 5
  Recommendations�������������������������������������������������������������������������������������������������������������� 7
  Management Comments and OIG Response��������������������������������������������������������������������� 7
BACKGROUND�������������������������������������������������������������������������������������������������������������������� 9
SECURITY INFRASTRUCTURE CONSTRUCTION PROJECTS�������������������������������� 13
  Project Funding���������������������������������������������������������������������������������������������������������������� 13
  Status of Construction ���������������������������������������������������������������������������������������������������� 14
     Presidential Guard College in Jericho. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
     National Security Forces Operations Camp in Jenin . . . . . . . . . . . . . . . . . . . . . . . . . . 17
     National Security Forces Operations Camp in Jericho. . . . . . . . . . . . . . . . . . . . . . . . . 18
     National Security Forces Training Center in Nuweimah . . . . . . . . . . . . . . . . . . . . . . . 18
PALESTINIAN AUTHORITY MANAGEMENT OF SECURITY
INFRASTRUCTURE CONSTRUCTION CONTRACTS AND PROJECTS ���������������� 21
OVERSIGHT OF SECURITY INFRASTRUCTURE CONSTRUCTION
CONTRACTS AND PROJECTS BY THE BUREAU OF INTERNATIONAL
NARCOTICS AND LAW ENFORCEMENT AFFAIRS �����������������������������������������������������������23
CONCLUSION ������������������������������������������������������������������������������������������������������������������ 25
ABBREVIATIONS�������������������������������������������������������������������������������������������������������������� 27
APPENDIX I: PURPOSE, SCOPE, AND METHODOLOGY������������������������������������������ 29
APPENDIX II: U.S. GOVERNMENT-FUNDED SECURITY INFRASTRUCTURE
CONSTRUCTION PROJECTS UNDER THE 2007 FRAMEWORK AGREEMENT
BETWEEN THE UNITED STATES OF AMERICA AND THE PALESTINIAN
AUTHORITY����������������������������������������������������������������������������������������������������������������������������������������31
APPENDIX III: UNITED NATIONS OFFICE OF PROJECT SERVICES
PROJECTS FOR PRESIDENTIAL GUARD COLLEGE IN JERICHO �������������������������� 33
APPENDIX IV: COMMENTS FROM THE BUREAU OF INTERNATIONAL
NARCOTICS AND LAW ENFORCEMENT AFFAIRS���������������������������������������������������� 35



OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011          iv


                                                  UNCLASSIFIED
                                                   UNCLASSIFIED




v   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                   UNCLASSIFIED
                                               UNCLASSIFIED



KEY FINDINGS

•	 Completion of all planned construction for infrastructure in support of
   Palestinian Authority security forces (PASF) will exceed the $80 million in
   funding covered by the 2007 Framework Agreement between the United States
   of America and the Palestinian Authority. An estimated $77 million has already
   been obligated; the cost to complete all future projects is estimated at more
   than $50 million. On December 26, 2010, the funding level in the Framework
   Agreement was raised to $150 million.
•	 Construction has begun on six of nine operations camps; the Presidential Guard
   College in Jericho and a training center in Nuweimah are being renovated. Site
   visits to the Presidential Guard College, two operations camps, and the training
   center revealed construction that appeared to be of generally good quality and
   on schedule. Locations have now been identified and property rights clarified for
   eight of nine planned operations camps in the West Bank.
•	 The Palestinian Authority (PA), along with its relevant ministries and the Project
   Implementation Unit (PIU), has effectively coordinated with both the Bureau of
   International Narcotics and Law Enforcement Affairs (INL) and the U.S. Security
   Coordinator (USSC) at the Department of State. Effective practices include:
       –– Obtaining independent government cost estimates;
       –– Ensuring bids are publicly advertised;
       –– Ensuring funds are fully available prior to the start of the bidding process;
       –– Ensuring bidding packages contain complete project designs;
       –– Using firm fixed-price contracts;
       –– Internally vetting contracts to prevent involvement of terrorist organizations;
          and
       –– Effectively overseeing project implementation through oversight of the
          contract award process, project approval and implementation, processing of
          payments, and daily monitoring of construction projects.
•	 The INL office at Consulate General Jerusalem has provided adequate oversight
   of construction contracts and projects and fulfilled its responsibilities under the
   2007 Framework Agreement and the relevant Implementation Letters.
•	 All construction contract personnel have been properly vetted and all have been
   cleared by the Department of State.
•	 The INL office at Consulate General Jerusalem has limited U.S. Government
   direct-hire staff to perform functions that are inherently governmental or
   approach being inherently governmental.

OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   1


                                               UNCLASSIFIED
                                                   UNCLASSIFIED




2   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                   UNCLASSIFIED
                                               UNCLASSIFIED



INTRODUCTION

Professionalization of the PASF1 is a key component of the U.S. Government’s effort
to broker a negotiated two-state solution for settling the Israeli-Palestinian conflict.2
Since 2007, the Department of State (Department), through INL, has provided
$395 million to help train and equip the PASF, including a total of $117 million for
security infrastructure construction projects.3

The Middle East Regional Office (MERO) of the Office of Inspector General (OIG)
initiated this evaluation under the authority of the Inspector General Act of 1978,
as amended, in response to congressional interest and concerns regarding security
infrastructure construction projects. These projects are being carried out under the
Framework Agreement between the United States of America and the Palestinian
Authority (Framework Agreement) signed on August 2, 2007. Primarily, OIG
performed this evaluation to determine whether INL is effectively managing and
overseeing the construction of PASF training camps and garrisons. Specifically, OIG’s
objectives were to determine: (1) the effectiveness of the PA’s Project Implementation
Unit’s (PIU) management of construction projects; (2) whether independent cost
estimates are being performed; (3) whether Palestinian construction contractors are
being properly vetted; and (4) whether contract processes are in accordance with
international best practices.

This report, which focuses on security infrastructure construction projects, is the
first of two on the Department’s management of assistance to parts of the PASF.
A second report will address an INL-directed DynCorp International (DynCorp)
program to train and provide equipment and logistical support to the PASF in the
West Bank and Jordan. For this evaluation, OIG met with officials from INL; the
Department’s office of the USSC for Israel and the Palestinian Authority; Consulate
General Jerusalem; the PA Ministries of Interior, Finance, and Public Works and
Housing; and the PIU. In addition, OIG visited ongoing security forces’ garrison and
training construction sites in Jenin, Jericho, and Nuweimah in the West Bank. OIG

1
 National Security Forces (NSF) and Presidential Guard units are part of the PASF. NSF are capable of
supporting the civil police and other security forces to maintain law and order and combat terrorism within the
West Bank. Presidential Guard units protect PA leaders, key installations, and foreign visitors.
2
 Under the Performance-Based Roadmap to a Permanent Two-State Solution to the Israeli-Palestinian Conflict
(UN Document S/2003/529, May 7, 2003), Israelis and Palestinians are obligated to undertake a series of
coordinated steps to disengage Israeli troops from areas in the Palestinian territories and replace them with
consolidated and retrained PASF.
3
  Of the $117 million, $77 million has been obligated under the Framework Agreement. In 2007, but prior to
the Framework Agreement, $10 million was obligated to build the Jericho Presidential Guard College. Finally,
in FY 2010, $30 million was obligated for other security infrastructure construction projects (See infrastructure
line in Table 1).



OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   3


                                               UNCLASSIFIED
                                                   UNCLASSIFIED



    conducted this performance evaluation from January 2010 to September 2010 in
    accordance with the Quality Standards for Inspection and Evaluation issued in January
    2011 by the Council of the Inspectors General on Integrity and Efficiency.




4   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                   UNCLASSIFIED
                                               UNCLASSIFIED



EXECUTIVE SUMMARY

RESULTS
Under the 2007 Framework Agreement between the United States of America and
the Palestinian Authority, the U.S. Government committed to assisting the PA in
promoting law and order through professionalization of the security sector, and
stated it intended to provide up to $80 million for this effort. Current plans call for
constructing nine operations camps, refurbishing and expanding a training center
and the Presidential Guard College, and building five police stations. According to
INL, an estimated $77 million has already been obligated for six of the nine planned
operations camps, the training center, and the police stations. INL has estimated
that more than $50 million will be required to complete the three additional camps
and a second phase of construction at the Nuweimah training center, as well as
at a fourth camp. On December 26, 2010, the Department and the PA signed an
Implementation Letter under the Framework Agreement, providing for funding
not to exceed $150 million. The U.S. Government has successfully overcome some
political and logistical challenges, and eight of nine camp locations have been identi-
fied and property rights clarified; construction has begun on six of nine operations
camps. In the next 3-5 years, these camps will train and accommodate an estimated
3,500 of the approximate 5,000 PASF troops. The OIG team visited four construc-
tion sites and interviewed relevant officials, and observed what appeared to be gener-
ally good quality, on-schedule construction.

The PA, along with its relevant ministries, has been effectively cooperating with
INL and the USSC to oversee the contract award process and monitor construc-
tion projects. Because coordination is key to program success, INL and the PA
established a PIU in the PA Ministry of Finance, which comprises representatives
from the Ministries of Finance, Public Works and Housing, and Interior. The PIU
has been a major contributor to the success of the ongoing construction and project
approval and implementation. The PIU facilitates coordination among the ministries,
processes payments, monitors projects on a daily basis, holds contractors accountable
for cost overruns and substandard work, identifies problems, ensures compliance with
the Framework Agreement and the relevant Implementation Letters, and prepares
required reports. The PA Ministry of Public Works and Housing has acquisition
regulations that closely resemble those of the U.S. Government, including obtaining
independent government cost estimates, using firm fixed-price contracts, and openly
vetting contracts. The Central Bidding Committee in the Ministry of Public Works
and Housing ensures bids are publicly advertised, project funds are fully available
before bidding begins, and bids contain complete project designs. All bids undergo



OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   5


                                               UNCLASSIFIED
                                                   UNCLASSIFIED



    an independent technical review by qualified personnel. Contracts are awarded to the
    lowest qualified bidder for bids varying 20 percent or less from the independent cost
    estimate. The PA also internally checks to ensure that potential contractors are not
    linked to terrorist organizations.

    INL representatives at Consulate General Jerusalem have been adequately oversee-
    ing construction contract awards and project implementation, and fulfilling their
    responsibilities. These responsibilities include ensuring accountability for expenditure
    of U.S. Government-provided funds and proper vetting of contractors for foreign
    terrorist organizations. Invoices are double checked to resolve any discrepancies.
    INL engineers review all proposed projects for feasibility of design and accuracy of
    cost estimates. Upon recommendation by the INL director in Jerusalem, projects
    are approved by the consul general or his representative before funds are transferred
    to the PA. A West Bank accounting firm conducts monthly reviews of all invoices
    and payments and reports the results to INL. OIG confirmed that, to date, all key
    personnel involved in construction contracts have been properly vetted and have been
    cleared by the Department.

    From October 2007 to August 2008, the INL office in Jerusalem had a series of
    directors on temporary duty, but since that time, the office has had two permanent
    directors, including the current director who arrived in September 2010. Although
    the INL staff has grown since 2007 from five personnel to 17, only the director is
    a U.S. Government direct-hire employee. Other employees in the office who are
    not U.S. Government direct-hires may be performing functions that are inherently
    governmental or approach being inherently governmental. Furthermore, the office
    currently oversees $395.4 million, and both funding and the number of projects are
    expected to increase.

    The PA and INL have successfully worked together to oversee and implement these
    security infrastructure construction projects. The PIU and PA ministries are follow-
    ing appropriate processes and providing adequate oversight of construction. The INL
    office in Jerusalem is adequately monitoring the work of the PA and its ministries.
    However, one U.S. Government direct-hire employee may not be sufficient to
    perform all the inherently governmental functions required by this program. OIG
    agrees with INL that the initial amount of $80 million in funding obligated from
    FY 2007-2010 for construction will not be sufficient to complete future projects.
    OIG notes that funding was increased in the Implementation Letter signed in
    December 2010.




6   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                   UNCLASSIFIED
                                               UNCLASSIFIED



RECOMMENDATIONS
Recommendation 1: The Bureau of International Narcotics and Law Enforcement
Affairs, in coordination with the U.S. Security Coordinator, should develop detailed
plans to complete and sustain the Palestinian Authority security forces infrastructure
construction program. These plans should include firm estimates of future funding
requirements and a strategy to successfully transition program responsibility to the
Palestinian Authority. (Action: INL, in coordination with the USSC)

Recommendation 2: The Bureau of International Narcotics and Law Enforcement
Affairs should conduct a staffing analysis of INL at Consulate General Jerusalem to
ensure the appropriate numbers of U.S. Government direct-hire staff are assigned to
effectively perform inherently governmental functions. (Action: INL)




MANAGEMENT COMMENTS AND OIG RESPONSE
INL provided formal written technical and management comments to this report,
Consulate General Jerusalem and the Bureau of Near Eastern Affairs provided
technical comments, and the Office of Acquisition Management did not provide
comments. INL generally agreed with the intent of both recommendations.
Management comments from INL are included verbatim in Appendix IV, and OIG
has incorporated technical comments as appropriate.

In regard to Recommendation 1, INL noted that the bureau and the USSC have
identified PA infrastructure needs through FY 2012 and have requested funding
for these projects. In addition, the USSC’s strategy focuses on the need to transition
to a “sustainment” phase, which has also been addressed in the FY 2012 funding
request. However, many factors affect the ability to develop firm funding estimates
including other donors’ support, the PA’s priorities, and agreement between the
PA and the Government of Israel on infrastructure requirements. In response to
Recommendation 2, INL noted it is constantly assessing staffing needs in Jerusalem
and has added staff to provide technical assistance. INL continues to seek the right
mix of direct-hire and other staff given the current travel constraints in the West
Bank.




OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   7


                                               UNCLASSIFIED
                                                   UNCLASSIFIED




8   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                   UNCLASSIFIED
                                               UNCLASSIFIED



BACKGROUND

The 1993 Oslo Accords, which resulted
from the first direct, face-to-face negotiation
between the new Israeli Government and
the Palestinian Liberation Organization,
supported the PA as an interim self-
government, called for Israeli defense forces
to depart from areas of the West Bank and
Gaza, and provided for the establishment of
Palestinian internal security forces in these
two areas. The arrangements were intended
to last for a 5-year temporary period and to
serve as a framework for negotiations on all
final status issues, ultimately leading to a
permanent agreement.

The outbreak of the second intifada in 20004
compromised assistance efforts and resulted
in the Israeli security forces’ destruction of
much of the Palestinian security infrastruc-
ture. Consequently, Israeli-Palestinian security
cooperation ended, and other governments
reduced or ceased their security assistance to
the PA. In 2003, security assistance efforts
resumed when the PA, Israel, the United
States, the United Nations, the European
Union, and Russia agreed to implement the
Roadmap for Peace. Designed to create a
Palestinian state that would coexist peace-
fully with Israel, the Roadmap for Peace             Figure 1: Map of Israel, the West Bank,
was modified and officially endorsed by the          and Gaza
Quartet, which is composed of the United             Source: CIA World Factbook
States, the European Union, Russia, and
the United Nations. In 2005, then-U.S. Secretary of State Rice created the office of
the USSC for Israel and the PA. Recognizing that security is key to Israeli-Palestinian
peace, the USSC’s goal was to professionalize and consolidate the PASF and coordinate
their activity with Israeli officials. Figure 1 shows the current boundaries of Gaza and
the West Bank in relation to the surrounding countries.


4	
     The first intifada between Palestinian and Israeli security forces occurred between 1987 and 1993.


OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   9


                                               UNCLASSIFIED
                                                    UNCLASSIFIED



     In 2007, U.S. Secretary of State Rice and Palestinian Prime Minister Fayyad signed
     a Framework Agreement that formalized U.S. Government intentions to provide
     assistance to the PA to promote law and order by strengthening and reforming the
     Palestinian security sector. According to a senior U.S. Government official, the
     associated monetary support was designed to show political support and send the
     message that the U.S. Government was serious in its pledge to support the PA secu-
     rity sector. That support was specifically intended to promote law and order through
     the professionalization of the PASF. The Framework Agreement provided an over-
     arching structure, set forth conditions for disbursement of funds directly to the PA
     Implementation Letters, and established terms for reporting, oversight, and auditing.

     The USSC, which works for the Secretary of State under chief of mission authority, is
     composed of U.S. military personnel, U.S. Government civilian staff, and allied military
     staff operating in the West Bank; it provides advice and guidance to the Palestinian secu-
     rity sector on its reform efforts, and also coordinates the programs of several other donors
     to the security sector. INL is responsible for implementing U.S. foreign assistance to the
     PA for security sector reform and coordinates closely with the USSC in support of PASF
     infrastructure construction projects. Approximately 17 INL staff members at Consulate
     General Jerusalem approve the transfer of funds and implement the security infrastructure
     construction program, including the construction of nine operations camps and one
     training center. Table 1 shows Department funding to support the PASF.

     Table 1: Department Funding in Support of Palestinian Authority Security Forces, FY 2007-2010*

                                                        FY 2009
                                          FY 2008                                  FY 2009
                            FY 2007                      bridge      FY 2009                     FY 2010         Total
                                        supplemental                             supplemental
                          appropriation               supplemental appropriation               appropriation FY 2007-2010
                                        appropriation                            appropriation
                                                      appropriation
         Training              $28.6             $13.0            $22.6              $13.5            $39.0             $41.0           $157.7
         Equipment             $22.6             $12.0                 $0             $7.0            $14.2             $17.0            $72.8
         Infrastructure         $18.6                $0            $18.4                $0            $49.7             $30.5           $117.2
         Capacity
         development
                                 $6.0                $0             $4.0              $3.5             $4.2              $6.5            $24.2
         Program
         development            $10.6                $0             $5.0              $1.0              $1.9             $5.0            $23.5
         & support
         Total                 $86.4             $25.0            $50.0             $25.0           $109.0            $100.0           $395.4
     *
      According to INL, the initial $80 million in funding was reprogrammed from Economic Support Funds
     to International Narcotics and Law Enforcement funds.

     Source: GAO report of May 11, 2010, Palestinian Authority, U.S. Assistance Is Training and Equipping
     Security Forces, but the Program Needs to Measure Progress and Faces Logistical Constraints




10   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                    UNCLASSIFIED
                                               UNCLASSIFIED



                                                                    In consultation with the U.S. Government,
                                                                    the PA decided that nine operations
                                                                    camps in the West Bank, each designed
                                                                    for one Palestinian National Security
                                                                    Forces (NSF)5 battalion, would be located
                                                                    throughout nine Palestinian governor-
                                                                    ates. These infrastructure projects directly
                                                                    support the four USSC programs of
                                                                    stabilization, transformation, transition,
                                                                    and enduring security relations. The
                                                                    nine operations camps will support the
                                                                    Palestinian strategic plan for security forces
                                                                    to be permanently stationed throughout
                                                                    the West Bank to enforce law and order
                                                                    in Palestinian communities. Eight of
                                                                    nine NSF operations camp locations have
                                                                    been identified.6 They will be located in
                                                                    Jericho, Jenin, Tubas, Bethlehem, Hebron,
                                                                    Tulkarem, Nablus, and Qalqilyah. In
                                                                    addition to the operations camps, the
                                                                    Presidential Guard College in Jericho
                                                                    will be refurbished and a training center
                                                                    in Nuweimah is still under construction.
                                                                    Figure 2 shows the locations of major ongo-
                                                                    ing and planned security infrastructure
                                       Planned Project
                                                                    construction projects.
                                       Ongoing Project
                                       Training Center



Figure 2: Locations of Major Ongoing and
Planned U.S. Government-funded Construction
Projects, the Nuweimah Training Center, and
the Training Center at the Presidential Guard
College in the West Bank
Source: OIG analysis of INL data; CIA World
Factbook map




5
  NSF are capable of supporting the civil police and other security forces to maintain law and order and combat
terrorism within the West Bank.
6
  At the time of OIG’s evaluation, all nine camp locations had been identified. However, in comments on a
draft of this report, Consulate General Jerusalem noted that the one location in Ramallah had subsequently
become unavailable, and that the PA was seeking a new location in Ramallah.



OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   11


                                               UNCLASSIFIED
                                                    UNCLASSIFIED




12   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                    UNCLASSIFIED
                                               UNCLASSIFIED



SECURITY INFRASTRUCTURE
CONSTRUCTION PROJECTS

PROJECT FUNDING
During its evaluation, OIG learned that additional funding beyond the original $80
million will be needed to complete future security infrastructure construction proj-
ects not envisioned in the Framework Agreement. According to INL, $77 million has
already been obligated for six of the nine planned operations camps, the Nuweimah
training center, civil defense projects, joint operation centers, building renovations,
and five police stations. Table 2 below shows the breakdown of funded security
infrastructure construction projects. (See Appendix II for more detailed project
descriptions).

Table 2: Funded Infrastructure Construction Projects - Training Centers, Operations Camps,
Presidential Guard College, and Other Projects in the West Bank

                                                Project Start           Funding in            Percent               Scheduled
        Project and Location
                                                    Date                U.S Dollars          Complete             Completion Date

 Nuweimah Training Center                        Dec. 2007                 $9,933,000            92%           1st quarter (QTR) 2011
 Jericho Operations Camp                          June 2007              $11,313,000             98%               4th QTR 2011
 Jenin Operations Camp                            Feb. 2009              $11,000,000             25%               4th QTR 2011
 Tubas Operations Camp                           Dec. 2009                $3,000,000             10%               2nd QTR 2012
 Hebron Operations Camp                          Sept. 2009              $15,000,000             20%               2nd QTR 2012
 Tulkarem Operations Camp                         May 2010                $9,500,000              2%               2nd QTR 2012
 Jericho Presidential Guard College*            August 2010               $1,300,000              1%               3rd QTR 2011
 Bethlehem City Operations Camp                  Sept. 2010              $10,000,000              1%                1st QTR 2012

 Total Funded Camps and
                                                                        $71,046,000
 Training Centers

 Civil Defense, Joint Operation
 Centers, Building Renovations                     Ongoing                $5,884,348           Various                  Various
 and Five Police Stations

 Total Funded Projects                                                  $76,930,348

* Presidential Guard College project includes only upgrades and renovations.

Source: INL Implementation Letters under the Framework Agreement




OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   13


                                               UNCLASSIFIED
                                                    UNCLASSIFIED



     It has been estimated that completing construction of three additional camps and
     a second phase of construction on the training center will require more than $50
     million. On December 26, 2010, the consul general in Jerusalem and PA Prime
     Minister Fayyad signed Implementation Letter No. 1B under the Framework
     Agreement, stating that the Department intends to provide assistance not to exceed
     $150 million, thus raising the funding level from $80 million to not more than $150
     million. Table 3 below shows the breakdown of these planned, but as yet, unfunded
     security infrastructure construction projects.

     Table 3: Planned but Unfunded Security Infrastructure Construction Projects in the West Bank

                                                                 Estimated Cost                    Planned/Projected
                            Project
                                                                 in U.S. Dollars                   Completion Date*
         Tubas Operations Camp**                                         $7,000,000                   2nd QTR 2012

         Nablus Operations Camp                                         $12,000,000                   4th QTR 2012

         Ramallah Operations Camp                                       $15,000,000                   4th QTR 2012

         Nuweimah Training Center Phase II                              $10,000,000                   4th QTR 2012

         Qalquilya Operations Camp                                       $7,000,000                   1st QTR 2013

         Total Planned but Unfunded Projects                           $51,000,000
     *
         Estimated completion date pending FY 2011 funding.
     **
          Estimated cost is for additional construction at the Tubas operations camp.

     Source: INL Jerusalem




     STATUS OF CONSTRUCTION
     Although the U.S. Government has faced some political and logistical challenges,
     including acquisition of materials, funds, and permits, it has been successful to date
     in assisting the PA in constructing operations camps. Construction has begun on six
     of nine camps with the three remaining camps to begin construction in 2011, pend-
     ing passage of INL’s FY 2011 $150 million budget request. For example, the U.S.
     Government faced a major challenge in acquiring land for the operations camps with
     clear property rights,7 but eight of nine camp locations in the West Bank have now
     been identified and all property rights clarified for these eight camps.


     7
      The GAO report of May 11, 2010, Palestinian Authority, U.S. Assistance Is Training and Equipping
     Security Forces, but the Program Needs to Measure Progress and Faces Logistical Constraints discusses
     these challenges.


14   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                    UNCLASSIFIED
                                               UNCLASSIFIED



                                                                           These camps are designed to accom-
                                                                           modate an estimated 3,500 of the
                                                                           approximate 5,000 PASF troops that
                                                                           the U.S. Government plans to help train
                                                                           in the next 3-5 years. While operations
                                                                           camps and training centers are being
                                                                           constructed in the West Bank, NSF
                                                                           troops and presidential guardsmen are
                                                                           being trained at the Jordan International
                                                                           Police Training Center near Amman,
                                                                           which has been used in the past. West
                                                                           Bank operations camps and training
                                                                           centers are planned to be fully func-
                                                                           tional, each equipped with administra-
                                                                           tion buildings, barracks, a mess hall,
                                                                           classrooms, and training facilities. Once
                                                                           construction is completed, all troop and
                                                                           guardsmen quartering, and most train-
                                                                           ing will take place in the West Bank; the
                                                                           training center in Jordan will continue
                                                                           to be used as needed.

                                                                           OIG visited the four sites under
                                                                           construction—the Presidential Guard
                                                                           College in Jericho, NSF operations
                                                                           camps in Jenin and Jericho, and the
                                                                           training center in Nuweimah. The
                                                                           OIG team also interviewed U.S. and
                                                                           Palestinian engineers, representatives of
                                                                           Palestinian Ministries, and contractors.
                                                                           Through these site visits and inter-
                                                                           views, OIG observed that construc-
                                                                           tion appeared to be generally of good
                                                                           quality and on schedule. The photos in
Figure 3: The photos above show, from top to bottom,                       Figures 3 and 4 were taken during site
an administration building, barracks, and a mess hall                      visits to facilities under construction to
at operations camps visited by the OIG team.
                                                                           illustrate what a completed operations
Source: OIG                                                                camp would include.




OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   15


                                               UNCLASSIFIED
                                                    UNCLASSIFIED



                                                                                Presidential Guard College in
                                                                                Jericho
                                                                                Through its visit to the completed
                                                                                Presidential Guard College in
                                                                                Jericho and interviews, OIG learned
                                                                                that several of the initial buildings
                                                                                constructed beginning in October
                                                                                2007, were built by Palestinian mili-
                                                                                tary personnel with no construction
                                                                                background.8 As a result, the team was
                                                                                told, there were structural settlement
                                                                                problems with two of the barracks
                                                                                buildings, but these were scheduled for
                                                                                repair using renovation funds provided
                                                                                through the Framework Agreement.

                                                                                The college has classroom space and
                                                                                accommodations for 250 personnel, as
                                                                                well as dining and support facilities for
                                                                                500 personnel, which could include
                                                                                those not training or stationed at the
                                                                                college. The Palestinian commander
                                                                                of the college stated that a Presidential
                                                                                Guard battalion9 comes for refresher
                                                                                training every 3 months. A battalion
                                                                                was attending refresher training when
                                                                                OIG visited. OIG observed intermedi-
                                                                                ate and senior leadership courses being
                                                                                conducted.




     Figure 4: The top photo shows a classroom. The center
     photo shows an outdoor training area at an operations
     camp. The photo on the bottom shows a rappelling
     tower at the Presidential Guard College in Jericho.
     Source: OIG



     8
      Initial construction was carried out under the United Nations Office of Project Services. See Appendix III for
     descriptions of projects and funding amounts.
     9	
        The Presidential Guard is composed of three battalions with approximately 400 soldiers in each, and one
     battalion with 180 soldiers.



16   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                    UNCLASSIFIED
                                               UNCLASSIFIED




Figure 5: The photos above show barracks and administration buildings on the left and parade
ground bleachers on the right at the Presidential Guard College in Jericho.
Source: OIG




National Security Forces Operations Camp in Jenin
During its site visit to the NSF operations camp in Jenin, the OIG team learned
through interviews with Palestinian officials and the INL supervisory engineer
that the plans for several buildings were revised by Palestinian engineers because
of problems with excavation and back filling of soil. At the time of OIG’s site visit,
construction had begun on the perimeter fence, the foundations of buildings, and the
mess hall.




Figure 6: The photos above from the operations camp at Jenin show barracks under construction on
the left and construction personnel and buildings on the right.
Source: OIG




OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   17


                                               UNCLASSIFIED
                                                    UNCLASSIFIED



     National Security Forces Operations Camp in Jericho
     This operations camp is planned to accommodate approximately 750 personnel and
     provide workspace, basic vehicle maintenance facilities, clinical facilities, tactical
     communications, a warehouse, and housing for canines. During its site visit, OIG
     found that the headquarters building had not been completed, but staff members
     had adjusted and were temporarily using rooms in the barracks as offices. The dining
     facility and housing accommodations were completed and functional.

     The camp is designed to be self-sufficient and will be the first one finished. As part
     of its self-sufficiency, water is stored in an underground tank and pumped into an
     aboveground gravity-operated pressure tank as needed. Plants will be watered with
     recycled water from a sewage treatment facility. Water from the municipal system is
     reported to be drinkable upon arrival, however, the PIU has requested installation of
     a purification system.




     Figure 7: The photos above from the operations camp in Jericho show an office building on the left
     and dining facilities on the right.
     Source: OIG




     National Security Forces Training Center in Nuweimah
     An existing facility in Nuweimah is being refurbished, and the site is being
     expanded to serve as an NSF training center. Upon completion of the first phase
     of construction, this center will accommodate 700 people; after completion of
     a planned second phase, the center will accommodate 2,000. The OIG team
     observed the buildings appeared to be well constructed and construction had been
     proceeding on schedule. Figure 8 on the following page shows construction prog-
     ress between October 2009 and April 2010.




18   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                    UNCLASSIFIED
                                               UNCLASSIFIED




Figure 8: The photos above show the status of construction at the NSF training center in Nuweimah in
October 2009 on the left and construction observed during OIG’s site visit in April 2010 on the right.
Source: OIG




OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   19


                                               UNCLASSIFIED
                                                    UNCLASSIFIED




20   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                    UNCLASSIFIED
                                               UNCLASSIFIED



PALESTINIAN AUTHORITY MANAGEMENT OF
SECURITY INFRASTRUCTURE CONSTRUCTION
CONTRACTS AND PROJECTS

The PA, along with its relevant Ministries, is effectively implementing the U.S.
Government-funded security infrastructure construction program. At the time
the Framework Agreement was signed, the PA lacked the history and capacity for
working level project coordination across ministries. Because multi-ministry coor-
dination and decision-making are key to the success of the program, INL and the
PA established the PIU, which is located in the Ministry of Finance and consists
of representatives from the Ministries of Finance, Public Works and Housing, and
Interior. The PIU facilitates coordination among the ministries and provides day-
to-day oversight and management of all construction projects. The PA Ministry of
Public Works and Housing has acquisition regulations that closely mirror those of the
U.S. Government, and it follows best business practices such as obtaining indepen-
dent government cost estimates, using firm fixed-price contracts, and openly vetting
contracts through an established system. A Central Bidding Committee in the
Ministry of Public Works and Housing issues contract bidding requirements. Finally,
per the requirements of the Framework Agreement, the PA has set up a separate
account to segregate and manage U.S. Government-provided funds.

According to INL and Palestinian officials, the PIU has been pivotal to the success of
current construction projects and is effectively overseeing implementation of all proj-
ects. It works with the PA ministries to keep contract and project processes moving.
The PIU provides project coordinators and engineers who facilitate the progress
of construction by ensuring the quality of design, an optimal supply process, and
higher level day-to-day supervision of construction contracts. The PIU also oversees
the construction project approval and implementation cycles and the processing of
payments. Its onsite representatives fully document and oversee ongoing construction
activities. PIU engineers and project managers monitor the construction projects
on a daily basis and hold contractors accountable for cost overruns and substandard
work. Through interviews and review of quarterly reports, OIG found that the PIU
identifies problems and bottlenecks in project implementation, ensures compliance
with all Framework Agreement and relevant Implementation Letter requirements,
and prepares all required reports for Palestinian and U.S. Government officials. OIG
also found that since the establishment of the PIU in April 2009, the time between
contract award and the start of the project has been shortened by more than 65
percent.




OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   21


                                               UNCLASSIFIED
                                                    UNCLASSIFIED



     OIG found that independent cost estimates for proposed projects are determined,
     prior to the contract bidding process, by Palestinian ministry personnel with archi-
     tectural and design expertise or through international architectural and design firms.
     The Palestinian procurement law of 1999 guides the PA Ministry of Public Works
     and Housing and covers the contracting process; it is comparable to U.S. acquisition
     and procurement regulations. Independent cost estimates, which are based on market
     research, as well as current price and availability of labor and materials, are critical
     to finding the best qualified Palestinian companies. Using this research and infor-
     mation from past projects, a qualified estimate is developed. OIG’s examination of
     samples of contract awards revealed that initial independent cost estimates had been
     obtained for ongoing construction projects prior to the bidding process. INL officials
     verified that these cost estimates are reviewed by INL engineers in Jerusalem before
     the Palestinian bidding process begins. OIG determined that all 38 awards to date
     have been for firm fixed-price contracts and have remained within 2-12 percent of
     their independent cost estimates.

     A Central Bidding Committee in the Ministry of Public Works and Housing has
     bidding requirements including ensuring bids are advertised in a public forum,
     project funds are fully available prior to the start of the bidding process, and bidding
     packages contain complete project designs. Once bids are received and contents
     checked by the Central Bidding Committee, they are sealed and sent for an indepen-
     dent technical review to qualified Ministry personnel and/or an international archi-
     tectural and design firm. Under Palestinian law, a contract must be awarded to the
     lowest qualified bidder, and regulations require that only bids varying 20 percent or
     less from the independent cost estimate be considered. OIG also verified that, prior
     to awarding contracts, the PA internally checks information on all potential contrac-
     tors to prevent the involvement of terrorist organizations.




22   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                    UNCLASSIFIED
                                               UNCLASSIFIED



OVERSIGHT OF SECURITY INFRASTRUCTURE
CONSTRUCTION CONTRACTS AND PROJECTS
BY THE BUREAU OF INTERNATIONAL
NARCOTICS AND LAW ENFORCEMENT AFFAIRS

INL representatives at Consulate General Jerusalem have provided adequate oversight
of construction contracts and projects and fulfilled their responsibilities. Projects are
coordinated between the field and Washington, DC, where appropriate Department
bureaus are consulted as necessary. The Department also prepares the required
Implementation Letters that obligate and set conditions for disbursement of foreign
assistance funds; and authorizes signature of the Implementation Letters by the
consul general on behalf of the U.S. Government. The INL office in Jerusalem over-
sees the expenditure of U.S. Government-provided funds to ensure effective manage-
ment and accountability, oversight of the awarding of construction contracts,10 proper
vetting of contractors, and monitoring of project implementation.

INL has put in place management controls to double check payment of all invoices and
resolve problems in a timely manner. INL engineers in Jerusalem review all proposed proj-
ects for feasibility of design and accuracy of cost estimates. Once reviewed and approved
by the engineers, the project plans are referred to the INL director in Jerusalem, and upon
his recommendation, are approved by the consul general. After Implementation Letters
are signed by Prime Minister Fayyad and the consul general, the funds are transferred.
Funds cannot be drawn for the single treasury account (bank account for assistance
funds) unless the invoice is approved by the consul general. Each invoice is approved by
engineers representing INL, the Palestinian Ministry of Public Works and Housing,
and the PIU. Following INL approval, the International Relations Department in the
Ministry of Finance sends the request to its general accountant who issues the payment.
As an additional management control, INL Jerusalem has contracted with a West Bank
accounting firm to conduct monthly reviews of all invoices and payments to ensure funds
are accounted for in a timely manner, reducing the possibility of fraud or abuse. The
accounting firm provides monthly reports to INL on all transactions, so any identified
problems can be resolved immediately, rather than after a future audit.

OIG verified that all key personnel involved in PA security infrastructure construc-
tion contracts to date have been properly vetted by the Department, and to date, all
personnel submitted have been cleared.

10
   As an example of its effective oversight of contract awards, after analyzing the Palestinian procurement law,
INL noted to the PA that awarding a contract to the lowest bidder can lead to requests by the contractor for
additional funds and/or inadequate performance. In response to INL raising this point, the PA agreed to write
regulations stipulating that a contract would be awarded to the lowest bidder only if the bid was within 20
percent of the independent cost estimate.

OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   23


                                               UNCLASSIFIED
                                                    UNCLASSIFIED



     The INL office in Jerusalem has had some staffing issues. The first temporary
     director, who arrived in October 2007 and stayed 3 months, was followed by a series
     of temporary duty officers until the first permanent INL director was assigned in
     August 2008. When the permanent INL Jerusalem director arrived, four other staff
     members were assigned to the office. The director completed his tour on July 1, 2010,
     and a new director arrived in September 2010 for a 3-year tour. The assignment of a
     permanent director has brought continuity to the program, which was lacking from
     October 2007 until August 2008 during the critical startup months.
     Since 2007, INL staff in Jerusalem has grown from five to 17 and from overseeing
     $86.4 million to $395.4 million. Although staffing has increased, only the director
     is a U.S. Government direct-hire. The other positions tasked with ensuring adequate
     internal management control and implementing projects are staffed by a personal ser-
     vices contractor, locally employed staff, and a third party contractor. OIG believes this
     staffing situation could lead to contractor personnel performing inherently governmen-
     tal functions as defined in the Federal Acquisition Regulation (FAR).11 As an example,
     OIG observed several documents related to the transfer of U.S. Government-furnished
     equipment to the PA that had been signed by a personal services contractor. Further-
     more, the senior framework projects manager is a third party contractor who regularly
     represents INL at meetings with Palestinian officials and contractors to discuss contract
     administration, technical evaluations, and policies. These functions may approach be-
     ing inherently governmental.12 This issue will be examined further in OIG’s upcoming
     report on its evaluation of INL’s contracts covering logistics and training of the PASF.
     Figure 9 shows the current organizational structure of the INL office in Jerusalem.

                                                                      Director

                                     Management Officer                                          Deputy


                                                                                                        Senior Framework
                         INL Office Manager                 INL Jordan Representative                   Projects Manager

                         Financial Assistant                 INL Jordan Support Staff                 Framework Engineer

                            GSO Assistant                    INL Jordan Support Staff               INL Supervising Engineer

                           Admin Assistant                         Support Staff                    INL Supervising Engineer

                           Admin Assistant

                              INL Driver

     Figure 9: Organization of the Bureau of International Narcotics and Law Enforcement Affairs Office
     in Jerusalem

     Source: INL

     11
        FAR 7.503 (c) (1)-(17) lists examples of functions considered to be inherently governmental functions or
     which shall be treated as such. The list is not all inclusive.
     12
        FAR 7.503 (d) (1)-(19) lists services and actions not considered to be inherently governmental functions but
     “may approach being in that category because of the nature of the function, the manner in which the contractor
     performs the contract, or the manner in which the Government administers contractor performance.” The list
     is not all inclusive.

24   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                    UNCLASSIFIED
                                               UNCLASSIFIED



CONCLUSION

Through its evaluation, OIG determined that the PA and INL have successfully
worked together to oversee both the awarding of contracts and implementation
of these security infrastructure construction projects. The PIU and PA ministries
involved in contract awards are following appropriate processes that comply with
good business practices and are providing adequate oversight of construction.
Construction at the sites visited by OIG appears to be satisfactory and proceeding
on pace. The INL office at Consulate General Jerusalem is monitoring the work of
the PA and its ministries, and is fulfilling its responsibilities. However, only one U.S.
Government direct-hire employee is assigned to perform all inherently governmental
functions. OIG agrees with INL that the amount of funding initially obligated for
construction will not be sufficient to complete the planned projects. OIG notes that
funding was increased in an Implementation Letter signed in December 2010.




OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   25


                                               UNCLASSIFIED
                                                    UNCLASSIFIED




26   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                    UNCLASSIFIED
                                               UNCLASSIFIED



ABBREVIATIONS

Department			                                      Department of State
FAR 			                                            Federal Acquisition Regulation
Framework Agreement			                             Framework Agreement between the United States 	
                     		                            of America and the Palestinian Authority of 2007
INL 			                                            Bureau of International Narcotics and Law 		
       		                                          Enforcement Affairs
MERO			                                            Middle East Regional Office
NSF	                                      	        National Security Forces
OIG 			                                            Office of Inspector General
PA	                                       	        Palestinian Authority
PASF	                                     	        Palestinian Authority security forces
PIU 			                                            Project Implementation Unit
USSC 			                                           U.S. Security Coordinator




OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   27


                                               UNCLASSIFIED
                                                    UNCLASSIFIED




28   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                    UNCLASSIFIED
                                               UNCLASSIFIED



APPENDIX I: PURPOSE, SCOPE,
AND METHODOLOGY

MERO initiated this work under the authority of the Inspector General Act of 1978,
as amended, because of Congressional concerns about U.S. funds appropriated for
construction of PASF operations camps and training facilities. The primary objective
of this evaluation was to determine whether INL was effectively managing and over-
seeing the construction of PASF operations camps and training facilities. Specifically,
OIG’s objectives were to determine: (1) the effectiveness of the PIU’s management of
construction projects; (2) whether independent cost estimates are being performed;
(3) whether Palestinian construction contractors are being properly vetted; and (4)
whether contract processes are in accordance with international best practices.

To determine INL’s effectiveness in managing and overseeing the construction
projects, OIG interviewed INL management and staff in Washington, DC, and
Jerusalem. OIG reviewed contract files, monthly status reports, quality control
reports, and project files. OIG reviewed the statements of work for the West Bank
accounting firm INL has contracted with to review invoices and payments. OIG
observed construction projects in the West Bank cities of Nuweimah, Jenin, Jericho,
and Ramallah. OIG obtained and reviewed funding data by project to include
amounts committed, obligated, and disbursed, and remaining balances including
approval letters for individuals authorized to approve, transfer, or release funding
from bank accounts and make payments.

To determine whether independent PA cost estimates were performed, OIG inter-
viewed INL and Palestinian project managers and reviewed Palestinian procurement
regulations (contracts and procurement laws and regulations were translated from
Arabic to English). OIG interviewed a representative from an architecture and
engineering firm contracted to conduct cost estimates for the PA. OIG reviewed
project files and noted any variances between the PA’s independent cost estimates and
amounts of the contract awards.

In evaluating the effectiveness of the PIU, OIG interviewed INL management and
USSC personnel in Jerusalem. OIG met with representatives of the PA Ministries
of Interior, Finance, and Public Works and Housing and from the PIU. OIG visited
construction sites in the West Bank where the team observed construction and
interviewed PIU project managers and engineers. OIG interviewed NSF officials in
Jenin, Jericho, and Ramallah. OIG reviewed project files and assessed the construc-
tion timeline before and after the establishment of the PIU.



OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   29


                                               UNCLASSIFIED
                                                    UNCLASSIFIED



     To assess contractor vetting procedures OIG reviewed Palestinian procurement
     regulations and interviewed INL officials in Jerusalem and Washington, DC. OIG
     reviewed INL’s records and process for ensuring U.S. funds are not being funneled to
     foreign terrorist organizations.

     OIG conducted this evaluation from January 2010 to September 2010. OIG did
     not use computer-processed data to perform this evaluation. OIG conducted this
     performance evaluation in accordance with the Quality Standards for Inspection
     and Evaluation issued in January 2011 by the Council of the Inspectors General on
     Integrity and Efficiency.

     This report was prepared under the direction of Richard “Nick” Arntson, Assistant
     Inspector General for MERO. The following staff members conducted the evalua-
     tion and/or contributed to the report: Barbara J. Brandon, Patrick Dickriede, Kelly
     Herberger, Janet Mayland, and James Pollard.




30   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                    UNCLASSIFIED
                                               UNCLASSIFIED



APPENDIX II: U.S. GOVERNMENT-FUNDED
SECURITY INFRASTRUCTURE CONSTRUCTION
PROJECTS UNDER THE 2007 FRAMEWORK
AGREEMENT BETWEEN THE UNITED STATES OF
AMERICA AND THE PALESTINIAN AUTHORITY


                                                                                                                            Total
                                                                                          Training Camp
                                 Project Description                                                                     Committed
                                                                                             Location
                                                                                                                        (U.S. Dollars)
 IL-2*     Construction of Training Camp                                            Nuweihmah and Alami                      $8,083,000
           Construction of National Security Forces (NSF)
 IL-4                                                                               Jericho                                 $11,313,000
           Operations Camp
           Renovation of Training Hub Strategic Planning
 IL-5                                                                               Ramallah                                  $1,100,000
           Department
 IL-6      Construction of NSF Operations Camp                                      Jenin                                   $11,000,000
 IL-8      Construction of NSF Operations Camp                                      Tubas                                     $1,700,000
 IL-9      Construction of NSF Operations Camp                                      Hebron                                      $170,000
                                                                                    Jericho, Qalqilya,
 IL-10     Construction of Joint Operations Centers                                 Tulkarem, Nablus, Jenin,                    $703,100
                                                                                    Ramallah and Bethlehem
 IL-11     Construction of NSF Operations Camp                                      Tulkarem                                 $9,500,000
 IL-12     Construction of Civil Protection Center                                  Asira, Nabala and Jenin                  $2,250,000
 IL-13     Complete Structures and Boundary Fence                                   Nuweihmah                                 $1,850,000
 IL-15     Complete Construction of Interim Operations Camp                         Tubas                                    $1,300,000
           Expand Infrastructure to renovate space Police
 IL-16                                                                              Hebron                                   $1,000,000
           Building
 IL-17     Renovation of Presidential Guard College                                 Jericho                                  $1,300,000
           Renovation of Bethlehem Reform and Rehabilitation
 IL-18                                                                              Bethlehem                                    $90,000
           Center
           Construction of NSF Operations Camp for Special
 IL-20                                                                              Hebron                                  $15,000,000
           Battalion
 IL-21     Construction of NSF Operations Camp                                      Bethlehem City                          $10,000,000
           Subtotal                                                                                                        $76,359,100

                                                                                                Table continues on next page




OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   31


                                               UNCLASSIFIED
                                                    UNCLASSIFIED



                                                                                                                                 Total
                                                                                               Training Camp
                                      Project Description                                                                     Committed
                                                                                                  Location
                                                                                                                             (U.S. Dollars)
                Establishment of PA Sub-account and Salaries
      IL-1      Set up of Sub-account for Project Implementation Unit                                                                           -
      IL-3      Strategic Planning Directorate Salaries                                                                              $380,832
      IL-7      PIU Salaries (2.8% from other ILs)
      IL-14     SPD Salaries                                                                                                         $190,416
      IL-19     PIU Salaries (2.8% from other ILs)
                Subtotal                                                                                                            $571,248
                Total                                                                                                           $76,930,348

     * Implementation letter

     Source INL-Jerusalem




32   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                    UNCLASSIFIED
                                               UNCLASSIFIED



APPENDIX III: UNITED NATIONS OFFICE
OF PROJECT SERVICES PROJECTS FOR
PRESIDENTIAL GUARD COLLEGE IN
JERICHO


                                                                                 U.S. Dollars           New Israeli
                   Contract                                  Date
                                                                                   (USD)               Shekels (NIS)
                                                                                                                                Euros
 Training Camp Construction
                                                       October 2007                  $8,799,802
 (UNOPS)
 Training Camp Construction
                                                          July 2008                    $498,242
 Additional
 Training Camp Construction
                                                       February 2009                    $799,969
 Additional
 Total Training Camp Construction
                                                                                   $10,098,013
 Additional
 Design Phase 1 (First Option)                                                                                  297,386
 Design Phase 2 (First Option)                                                                                   34,800
 Design Lecture Facility                                                                                         67,201
 Subtotal of Design Phase in NIS                                                                               399,387
 Construction Management                                                                                        411,000
 External Works - Construction                                                                               9,316,272
 Existing Buildings - Construction                                                                           5,573,320
 New Buildings - Construction                                                                                3,965,873
 Provision of Kitchen Equipment                                                                              1,239,308
 Provision of Office Furniture                                                                                 146,328
 Provision of Dormitory Furniture                                                                              432,582
 Provision of Computer Equipment                                                                                213,716
 Provision of Office and Miscellaneous
                                                                                                               236,664
 Furniture
 Provision of Dormitory Furniture                                                                               191,285
 Provision of Sewage Treatment Plant                                                                                              50,900
 Tiling Works to Existing WC 3                                                                                   75,000
 Dormitory for Trained Officers
                                                                                                             3,598,525
 - Construction

                                                                                                Table continues on next page


OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   33


                                               UNCLASSIFIED
                                                    UNCLASSIFIED



                                                                                      U.S. Dollars           New Israeli
                        Contract                                  Date
                                                                                        (USD)               Shekels (NIS)
                                                                                                                                     Euros
         Provision of Utensils for Kitchen 2
                                                                                                                     167,492
         contract
         Provision of Utensils for Kitchen 1
                                                                                                                      82,736
         and 3
         Provision of Utensils for Kitchen 2                                                                        162,094
         Boundary Wall, Canteen, Guard
                                                                                                                  1,910,634
         Tower - Construction
         Provision of 2nd Sewage Treatment
                                                                                                                                        51,851
         Plant
         Provision of Technical, Geotechnical
         Assessment and Remedial Design                                                                               53,000
         Works of Settlement Defect
         Strengthening Works                                                                                         931,304
         Provision of Consultancy Services and
         Design Works for Settlements Defects                                                                         48,000
         Ablution Unit, and Water Reserve
         Subtotal Construction & Other in
                                                                                                                28,755,133
         NIS
         Total NIS                                                                                             29,154,520a
         Total Euros                                                                                                                 102,751b
         Total UNOPS Project costs in USD
                                                                                        $18,222,761
         (USD, NIS, EUR)
     a
       Equals $7,974,927.40 at Interbank average daily exchange rate of .27354 NIS to 1 USD from 10/01/07 to
     02/01/09.
     b
       Equals $149,820.21 at Interbank average daily exchange rate of 1.45809 Euros to 1 USD from 10/01/07
     to 02/01/09.

     Source INL – Jerusalem




34   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                    UNCLASSIFIED
                                               UNCLASSIFIED



APPENDIX IV: COMMENTS FROM THE
BUREAU OF INTERNATIONAL NARCOTICS
AND LAW ENFORCEMENT AFFAIRS

                                                                            United States Department of State
                                                                            Washington, D.C. 20520


							                                                                     February 22, 2011


UNCLASSIFIED MEMORANDUM

TO:		                    OIG/MERO – Richard G. Arntson, Assistant Inspector General

FROM:	                   INL/RM – Robert S. Byrnes, Executive Director

SUBJECT:	                INL Comments on OIG Draft Report Palestinian Authority
			                      Security Forces Infrastructure Construction Projects in the West
			                      Bank (Report Number MERO-I-11-03, February 2011)

The Bureau of International Narcotics and Law Enforcement Affairs (INL) appreci-
ates the opportunity to comment on the draft OIG report. We are especially pleased
with the report’s overall assessment that looked favorably on the way we are manag-
ing and implementing the program’s infrastructure program as expressed in the
following appraisal on page 8: “The PA and INL have successfully worked together
to oversee and implement these security infrastructure projects… The INL office
in Jerusalem is adequately monitoring the work of the PA and its ministries.” INL
believes this reflects both the dedication and good work of the high quality people we
have recruited and assigned to this task.

Before turning to the recommendations, we would like to offer one technical fix.
We suggest adding a qualifier to the end of the sentence on page 14 in the first
paragraph, line four, under the “Status of Construction” section so that in would
read as follows: “Construction has begun on six of nine camps with the three remain-
ing camps to begin construction in 2011, pending passage of INL’s FY 2011 $150M
request.” The final three operations camp are budgeted in the FY 2011 request and
the only way we can start construction in FY 2011 is if we receive the full request
on time. However, this appropriation has not yet been enacted, and we do not know
whether our request will be fully funded. Consequently, it is possible that we may not


OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   35


                                               UNCLASSIFIED
                                                    UNCLASSIFIED



     have funding to do all three camps, and may not be able to get started until FY 2012.
     Nevertheless, our long-term goal remains to construct nine operations camps.

     With regard to the two recommendations on page nine, we generally agree with them
     insofar as their intent. However, it should be noted that INL is aware of these needs
     and is continually seeking to address them. Specifically, INL’s responses to the revised
     draft’s recommendations are as follows:

     Recommendation 1: The Bureau of International Narcotics and Law Enforcement
     Affairs, in conjunction with the U.S. Security Coordinator, should develop detailed
     plans to complete and sustain the Palestinian Authority security forces infrastructure
     program. These plans should include firm estimates of future funding requirements
     and a strategy to successfully transition program responsibility to the Palestinian
     Authority. (Action: INL, in coordination with the USSC)

     INL Response (February 2011): INL and the USSC have identified future PA
     infrastructure needs through 2012 and have requested funding for them. Moreover,
     the USSC’s mid-range assistance strategy focuses on the need to transition into a
     program “sustainment” phase, and this is likewise addressed in the FY 2012 INCLE
     request. Many factors, however, influence our ability to develop “firm” funding and
     implementation estimates in the West Bank. For instance, we must coordinate and
     cooperate with other donors who are also committed to providing infrastructure
     support to the PA—in particular, the EU, UN, Canadians, Germans, and Dutch—to
     determine which projects we will support. A recent example was our commitment to
     build five police stations in the West Bank only after the EU requested our support. In
     addition, we tailor our support to what the PA determines is its priorities and require-
     ments. The PA’s priorities, however, depend on what infrastructure requirements it
     and the Government of Israel (GOI) can agree to, and this can be a time-consuming
     and uneven process. For instance, our commitment to fund the construction of several
     National Security Force operations camps was delayed, in some cases by several years,
     because the GOI and the PA could not agree on suitable sites.

     Recommendation 2: The Bureau of International Narcotics and Law Enforcement
     Affairs (INL) should conduct a staffing analysis of INL at Consulate General
     Jerusalem to ensure the appropriate numbers of U.S. Government direct-hire staff are
     assigned to effectively perform inherently government functions. (Action: INL)

     INL Response (February 2011): INL fully agrees that its Jerusalem office should
     be staffed with the appropriate numbers of U.S. Government direct-hire staff, and
     we are constantly assessing our staffing needs to ensure that we have an adequate
     number of people performing the right roles within our funding confines to do the
     job. In the summer of 2009, INL conducted a management assistance visit to, among
     other things; review INL/Jerusalem staffing requirements. As a direct result of that
     review we have placed a Personal Services Contract deputy and management officer


36   OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011


                                                    UNCLASSIFIED
                                               UNCLASSIFIED



in the INL Section and have added locally employed staff to the infrastructure team
to help provide infrastructure project design and implementation technical assistance.
We have sought, and will continue to seek, the right mix of direct-hire and other
staff to ensure we can implement large infrastructure projects in several locations
as rapidly as possible in the politically-challenging environment of the West Bank.
This mission, however, can only be accomplished with the aid of contract employees
because direct-hire employees under Chief of Mission authority can only travel in
the West Bank, with the exception of to and from Jericho, under the protection of a
personal security detail. While this provides important security to American officials,
it also affects INL’s ability to travel freely, widely, and quickly throughout the West
Bank to exercise our oversight and technical assistance responsibilities unless we rely
on contractors reporting to INL.




OIG Report No. MERO-I-11-03 - Performance Evaluation of PA Security Forces Infrastructure Construction Projects in the West Bank - March 2011   37


                                               UNCLASSIFIED
         UNCLASSIFIED




FRAUD, WASTE, ABUSE
OR MISMANAGEMENT
of Federal programs hurts everyone.



           Contact the
   Office of Inspector General

         HOTLINE
to report illegal or wasteful activities:


            202-647-3320
            800-409-9926

         oighotline@state.gov

              oig.state.gov

      Office of Inspector General
       U.S. Department of State
            P. O. Box 9778
         Arlington, VA 22219


     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.




         UNCLASSIFIED
